<html>
<title> - ASSESSING GRANTS MANAGEMENT PRACTICES AT FEDERAL AGENCIES</title>
<body><pre>[Senate Hearing 112-670]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-670
 
       ASSESSING GRANTS MANAGEMENT PRACTICES AT FEDERAL AGENCIES 

=======================================================================


                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

76-065 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
MARK BEGICH, Alaska                  ROB PORTMAN, Ohio

                    John Kilvington, Staff Director
                William Wright, Minority Staff Director
                   Deirdre G. Armstrong, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     4
    Senator Brown................................................     4
Prepared statements:
    Senator Carper...............................................    37
    Senator Brown................................................    40

                               WITNESSES
                        WEDNESDAY, JULY 25, 2012

Hon. Daniel I. Werfel, Controller, Office of Federal Financial 
  Management, Office of Management and Budget....................     6
Hon. Elizabeth M. Harman, Assistant Administrator, Grants Program 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     8
Nancy J. Gunderson, Deputy Assistant Secretary, Office of Grants 
  and Acquisition Policy and Accountability, U.S. Department of 
  Health and Human Services......................................    10
Stanley J. Czerwinski, Director, Strategic Issues, U.S. 
  Government Accountability Office...............................    12

                     Alphabetical List of Witnesses

Czerwinski, Stanley J.:
    Testimony....................................................    12
    Prepared statement...........................................    63
Gunderson, Nancy J.:
    Testimony....................................................    10
    Prepared statement...........................................    59
Harman, Hon. Elizabeth M.:
    Testimony....................................................     8
    Prepared statement...........................................    50
Werfel, Hon. Daniel I.:
    Testimony....................................................     6
    Prepared statement...........................................    43

                                APPENDIX

The chart referenced by Senator Carper...........................    77
Questions and responses for the Record from:
    Mr. Werfel...................................................    79


       ASSESSING GRANTS MANAGEMENT PRACTICES AT FEDERAL AGENCIES

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper, Brown, and Coburn.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Welcome one and all. I call the hearing to 
order. We are glad you all could be all with us today.
    This hearing, as you know, will focus on some challenges 
related to Federal agencies' grant management practices and the 
opportunities that exist for addressing those practices.
    Each year, the Federal Government allocates, as you know, 
billions of dollars, actually hundreds of billions of dollars 
through grants to State and local governments, to educational 
institutions, to medical researchers, and to others. Effective 
management of those grants involves, among other things, 
ensuring that the funds are spent appropriately and are 
actually achieving the intended results for taxpayers. Now more 
than ever, it is important that we ensure strong, effective 
oversight over grant money.
    From Fiscal Years (FY) 1990 through 2010, Federal grant 
spending increased from about $135 billion annually, to over 
$612 billion, almost one-quarter of the Fiscal Year 2010 
Federal budget. This money went out through more than 1,600 
Federal grant programs managed by 23 Federal grant-making 
departments and agencies.
    These programs help first responders and State and local 
government improve their ability to withstand disasters. They 
fund efforts to find cures to cancer and other diseases. It is 
our responsibility in Congress and in the Administration to 
ensure that all this money is spent as intended and that, at 
the end of the day, we see real results.
    As everyone in the room knows, both the Federal Government 
and most State and local governments have struggled with record 
budget deficits in recent years. Today, our national debt 
stands at more than $15 trillion, well over double what it was 
just a decade ago when we actually had a balanced budget, if 
you can believe that. The last time our national debt was this 
high was at the end of World War II. That level of debt was not 
sustainable then. It is certainly not sustainable today. In 
order to address the burden that this debt places on our 
country, we need to look in every nook and cranny of the 
Federal Government with programs large and small and make 
certain that the resources we are investing in are being spent 
efficiently and effectively. We need to demand results and 
focus the scarce resources the taxpayers entrust us with on our 
highest priorities as a country and on solutions that are 
proven effective in addressing the many challenges that we 
face.
    Across the Federal Government, program managers need to 
sharpen their pencils and stop making the kind of expensive, 
avoidable mistakes that lead to improper payments. According to 
the Government Accountability Office (GAO), Federal agencies 
made an estimated $115 billion in improper payments in 2011. We 
have seen this before. Actually, we have seen more of this 
before. A year ago it was $119 billion. We are making a little 
progress.
    Senator Coburn, you will be happy, I just learned from 
Peter Tyler who sits behind my left shoulder, that we are going 
to hotline our Improper Payments Bill, the latest version of 
the Improper Payments Bill, grandson of the original improper 
payments bill I think, and try to get that done in the next few 
months--there you go. Version 3.0.
    But Federal grants are not the whole cause of improper 
payments. We know that error and fraud unfortunately occur in 
all categories of Federal spending.
    But, improving management and accountability in grant 
spending is one important piece of the puzzle when it comes to 
curbing waste and fraud. Success in doing so will help us as we 
work to curb our national debt, and in the case of Federal 
grants, it will help us get better results, we hope, both for 
grant recipients and the public at large. Ultimately all of us, 
that includes the Congress, that includes the Administration, 
State and local governments, grant recipients large and small. 
We want to improve the way that grants are managed and need to 
work together to do so.
    Our witnesses today will describe some important progress 
that has been made during the last few years, maybe even in the 
last few days, in improving the oversight and management of 
Federal grants. We will also be looking today at additional 
steps that the Federal Government ought to take.
    One stark example of the need for improved Federal grants 
management is the problem of money remaining in expired grant 
accounts. After a grant is awarded, the recipient has a 
specific amount of time to complete the grant requirements and 
to spend those funds.
    The grants must then be closed out, a process which 
includes an audit of the spending. In effect, the grant 
recipient has to show the receipts for the money that has been 
spent.
    However, according to GAO, at the end of Fiscal Year 2011, 
almost $1 billion in undisbursed funding remained in expired 
grant accounts.
    We have a chart\1\ here that shows the amount of money in 
expired grants within one grant management system called the 
Payment Management System, and the chart shows the levels and 
the ages of expired Federal grants.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Carper appears in the appendix 
on page 77.
---------------------------------------------------------------------------
    It shows about $794 million of grant funds remaining in 
accounts after the expiration date, sometimes going back as 
long as 5 or 10 years.
    GAO has also identified an additional Federal grant 
management system with $126 million in expired grant amounts of 
money. This is just not acceptable.
    Our GAO witness today will describe how a lack of a timely 
grant close out will lead to a higher risk of waste and fraud.
    The second problem we will discuss today is that of 
drawdown or ensuring the grant recipients spend their award of 
money in a timely manner. Unfortunately, problems have been 
identified in this area as well.
    For example, since its formation, the Department of 
Homeland Security (DHS) has provided State and local 
governments with over $35 billion in grant funding to help 
prepare for disasters and acts of terrorism.
    However, for a variety of reasons, the Department and its 
stakeholders have struggled to draw down some of this money and 
put these funds to work in our communities, and this could be 
due to sloppy bookkeeping or problems with how the grant 
program is structured. It could even be a sign that some of the 
unspent funds are not needed and could have been put to better 
use elsewhere. For whatever the reason, though, this is another 
issue that needs to be addressed.
    Finally, we will discuss the importance of measuring 
performance in our grant programs. As I have said earlier, we 
have got to work smarter with our limited resources, and this 
includes finding better ways to look at what we got for the 
grant money that has been spent.
    We look forward today to hearing from Danny Werfel, the 
Controller of the Office of Management and Budget (OMB) about 
how the Administration intends to build on what has worked so 
far in grant management oversight and also improve the 
performance of those initiatives that have not worked as well 
as we would like.
    We also look forward to hearing from officials from two of 
the largest grants making Federal agencies, the Department of 
Health and Human Services (HHS) and the Department of Homeland 
Security about grants management within their agencies.
    We are here today in large part, though, because we have a 
moral imperative to ensure that grant dollars are spent wisely 
and have proper oversight; and at the same time, we also need 
to ensure that scarce taxpayer resources are invested and spent 
as effectively as possible and that they show good measurable 
results.
    I am happy to turn it over to Senator Brown for any 
comments for any comments he wants to make or if he would he 
like to yield to Dr. Coburn.
    Senator Brown. I will yield.
    Senator Coburn. I thank my colleague
    Senator Carper. Dr. Coburn has another conference. I am 
glad that you are here and you are recognized.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. I thank my colleagues for recognizing me 
early. Unfortunately, I have a meeting at 2:45.
    As most of you know, I am keenly interested in this issue 
and have been through the testimony, and I am very pleased with 
the Controller alert that went out this week on grant 
management.
    Not all of this is the Administration's problems because a 
lot of the problems we find are from earmarks that were written 
improperly, than the money went out and there is no way to get 
it back. The grant funds are sitting there in limbo. This is 
what we need to fix.
    So, take my comments with a grain of salt but I would note 
a couple of things, and I have some questions for the Hon. 
Danny Werfel that we will submit for the record in terms of how 
you plan to follow up with the Controller alert.
    But, I would make a comment and just a little example. The 
city of Nederland, Texas, just got a $2.1 million grant for 
port security that was allegedly to renovate its city hall.
    The first story to be published in the paper said this was 
for the city hall. The corrected paper that was printed after 
that said, ``oh, well, we are going to build a new city hall,'' 
but the port security funds are for an emergency operations 
center for a land-locked city, even though it is close to Port 
Arthur.
    It just shows you when we have needs to deepen ports in 
South Carolina and to deepen the Kerr-McClellan navigation 
system to 12 feet all the way to Arkansas so we can ship the 
bread basket of wheat and corn that comes out of the middle of 
the country, we are spending $2.1 million to renovate a city 
hall. I know that is the instruction from the Secretary to 
spend the money. I understand that. I am not sure it is a wise 
use of the money.
    We are going to request that the city council and their 
planning commission show us that this was, in fact, for an 
emergency operations center and not for a new city hall.
    Grant management is key to making sure we are following 
what we want to do. I appreciate the efforts from all of you, 
and how you are trying to do this right.
    I think we are making some progress. I am really excited 
about some of the things that are happening, and I know it is 
slow, but I appreciate your dedication to do that. We will have 
questions for the panel through the questions for the record 
(QFRs), if we could, Mr. Chairman.
    Again, I thank my colleague from Massachusetts for yielding 
to me.
    Senator Carper. You are welcome. Thank you so much for your 
comments, and thanks for your steadfast work on these issues 
too. Thank you.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman.
    And, thank you to Senator Coburn.
    As you know, grants are important not only to other States 
but to Massachusetts. We have world class research facilities: 
MIT, Northeastern, UMass, WPI, and others. We are second in NIH 
funding and fourth on a per capita basis. I have heard anywhere 
from first to fourth. That is pretty impressive for a State our 
size and it drives an information based, 21st Century economy 
that serves as a model for our Nation. I support the increase 
in NIH funding and ensuring consistency in that funding, not 
just to create jobs in the Bay State, but more importantly to 
save and improve people's lives.
    I have learned in my brief time in Washington that throwing 
more money at a problem without adequate oversight and 
management is a recipe for waste, fraud, and abuse. 
Unfortunately, the current grants management system is beset by 
longstanding problems. For example, GAO recently reported that 
some 3,700 grant and contract recipients receiving $24 billion 
in Recovery Act money collectively owed more than $750 million 
in Federal taxes. The government also improperly pays many 
grants, for example, 5 of the top 10 government programs making 
improper payments were grant programs. These grants programs 
represent approximately $40 billion of the $115 billion total 
of government improper payments. This hearing will focus on the 
government's failure to properly disperse grant dollars and GAO 
reports at the end of Fiscal Year 2011, $794 million remain in 
expired accounts as was referenced by Senator Carper.
    The lifecycle is also characterized by many other problems, 
from not assessing the capability of prospective grantees to 
account for funds, to poor monitoring of grantee performance, 
to grants that are not closed out in a timely manner. Simply 
put, the grants management system is broken. We need to fix it. 
Grants now account for more Federal outlays than contracts, yet 
the grant management system is woefully behind the Federal 
contract management system. To achieve these grants and the 
grants reform that we need, there must be robust governance 
structure that effectively incorporates input from all of the 
stakeholders. It is our role as leaders to make sure that we 
fix this right away. The taxpayers have a right to expect 
better management.
    We cannot continue to waste money, Senator Carper, as you 
have referenced. We have to do it better. We just have to. I am 
looking forward to the testimony and I have some questions and 
go and do some votes. Thank you.
    Senator Carper. Thank you so much, Senator Brown. Thanks 
for being here.
    I want to thank our staffs, for the work that they continue 
to do here and help us to our oversight jobs.
    Danny Werfel is, I think this is the first time you have 
been before us, Mr. Werfel. I was kidding. Somebody the other 
day said if we had to pay him on the basis of every appearance, 
the Federal deficit would be a lot larger. We are glad you come 
for no extra charge.
    But our first witness today is Daniel Werfel. He is the 
Controller at the Office of Management and Budget. Mr. Werfel 
is responsible for OMB's efforts to improve financial 
management in all areas of the government, including financial 
reporting, improper payments, real property management, 
financial accounting standards, grant management, and financial 
systems, a lot of which are things we worked on in this 
Subcommittee.
    Mr. Werfel generously testifies in front of our 
Subcommittee quite frequently. We thank him for being with us 
today. So welcome.
    Elizabeth M. Harman, Assistant Administrator for the U.S. 
Department of Homeland Security. She is our second witness and 
has served in this role since 2010. She is responsible for the 
development, the administration, the implementation, award, and 
close out of more than 50 different grants and financial 
assistance programs.
    Ms. Harman has over 20 years of experience in the emergency 
management community, starting at the age of 12--is that right? 
I do not know if that is right or not--where she has held 
positions as an administrator, an academic, a volunteer and a 
career firefighter. That is pretty impressive.
    We want to thank you for appearing before this 
Subcommittee. Welcome.
    Ms. Nancy Gunderson, U.S. Department of Health and Human 
Services. She is the Deputy Assistant Secretary for the Office 
of Grants and Acquisition Policy and Accountability at the 
Department of Health and Human Services.
    Her office is responsible for department-wide leadership in 
the areas of grants and acquisition. Ms. Gunderson joined the 
Department of Health and Human Services in 2009. She was also 
the one-time Director of Acquisition Operations for the Federal 
Emergency Management Agency (FEMA). And has also held several 
key positions within the Department of Defense. We look forward 
to your testimony. I want to thank you for joining us today.
    And finally Mr. Stanley Czerwinski, who was the Director on 
the Strategic Issues Team for GAO. He is responsible for 
leading a broad range of evaluations concerning Federal, State, 
and local governments. Prior to coming to GAO, Mr. Czerwinski 
worked for both the Congressional Research Service (CRS) and 
the Congressional Budget Office (CBO). He has testified 
numerous times before Congress. We thank him for being with us 
today.
    One of the sounds that people most enjoy hearing is the 
sound of their own name correctly pronounced. So, we try to get 
it right and excuse us when we do not please.
    Mr. Werfel, you are in the leadoff spot.
    Mr. Czerwinski, you get to bat cleanup. In between we have 
these two ladies. A good lineup. Please proceed.

 TESTIMONY OF HON. DANIEL I. WERFEL,\1\ CONTROLLER, OFFICE OF 
 FEDERAL FINANCIAL MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Werfel. Thank you, Chairman Carper, Ranking Member 
Brown, Dr. Coburn, and Members of the Subcommittee, for the 
invitation to discuss with you today how the Federal Government 
can improve our management of Federal grants. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Werfel appears in the appendix on 
page 43.
---------------------------------------------------------------------------
    In response to the President's charge to build a 21st 
Century government that operates efficiently, effectively, and 
accountably, this Administration is taking transformative steps 
to improve the oversight and accountability of funds awarded 
through Federal grants.
    We are doing this by targeting oversight resources on the 
risk of waste, fraud, and abuse and by reducing administrative 
burden on recipients to improve grants delivery.
    To meet these goals, OMB has worked over the past year to 
review our policies on the single audit tool to ensure that we 
are best focusing our oversight resources where they can be 
most targeted on addressing the risk of waste, fraud, and 
abuse.
    Similarly, we are reviewing our cost allocation and 
administrative requirements to ensure that we are minimizing 
the administrative burden and resources associated with 
compliance so that recipients can focus their efforts on 
achieving outcomes.
    Consistent with our belief that successful resolution of 
policy questions requires strong input from those who may be 
affected, OMB began by engaging with both Federal and non-
Federal stakeholders to generate ideas for reform.
    Last October, we created the Council on Financial 
Assistance Reform (COFAR), an interagency council to provide a 
unified governance voice to the grants community and coordinate 
grants policies across the government.
    The COFARs first assignment has been to work with OMB to 
further develop these ideas for reform while also charting its 
own path for further ongoing stakeholder engagement.
    In order to provide all interested stakeholders with an 
opportunity to formally and transparently provide their input 
at the formative stages of this process, OMB published an 
advance notice of proposed guidance in the Federal Register 
last February.
    For each reform idea discussed, we looked for new and 
creative ways to ensure that our grants policies best serve the 
Federal Government, grant recipients, and ultimately the 
taxpayer.
    We received more than 350 public comments through this 
process, including views from State, local, and tribal 
governments, institutions of higher education, organizations, 
and the audit community.
    Since then, OMB has worked with the COFAR to review the 
feedback and develop concrete reform proposals for 
consideration. We intend to publish a notice of proposed 
guidance for public comment in the coming months.
    Beyond this effort, OMB is also improving the financial 
stewardship of Federal grants through verification of recipient 
eligibility using a new do-not-pay tool which I know you are 
aware of.
    And, as I discussed in a hearing last week, we are also 
working to increase the transparency of Federal spending of 
which grants is a major component.
    I would also like to specifically address GAO's recently 
issued report on the timeliness of grant closeout actions. We 
fully agree with GAO that timely closeout of grants can be 
improved. Failure to close out these accounts in a timely 
fashion may, in some cases, represent a worthy opportunity to 
improve our financial management and grants management 
practices, and I commend this Subcommittee and GAO for drawing 
attention to this issue and calling on Federal agencies to act.
    We are committed to working with agencies to ensure that 
appropriate steps are taken to improve accounting and other 
controls in this area.
    Having said that, we believe there are a few important 
caveats to the GAO report that I have highlighted in my written 
remarks. Most critical of these caveats, the prolonged period 
for closeout in some cases may reflect deliberate agency 
controls to ensure that proper grant recipient documentation is 
provided prior to disbursement of grant funds that closeout. 
Caveats aside, we fully agree with GAO that there are 
opportunities to improve the timeliness in the closeout of 
grant awards.
    To that end, yesterday I issued an alert on this topic to 
all agency chief financial officers (CFOs) that include 
specific strategies that agencies should explore for improving 
this process, including establishing strong linkages between 
the program and the CFO shop to determine what timely closeout 
means for programs and how to achieve it, focusing first on 
closing out expired grants that are several years past their 
end dates and have no remaining funds, establishing policies 
and procedures describing when it is appropriate for the agency 
to unilaterally close out grants, establishing annual or 
semiannual performance targets for timely grant closeout, 
leveraging internal control procedures to mitigate risks 
associated with not closing out grants in a timely manner, and 
monitoring closeout activity and tracking progress in terms of 
reducing our closeout backlog.
    As you will hear from HHS and DHS today, they are already 
engaging on these types of actions in their improvement 
efforts.
    Through these and other steps, we look forward to 
continuing to work closely with agencies, GAO, and this 
Subcommittee to ensure that the financial management policies 
governing Federal grants are delivering the high standard of 
accountability appropriate for an efficient, effective, and 
accountable 21st Century government.
    Thank you again for the opportunity to testify today. I 
look forward to answering your questions.
    Senator Carper. Thank you so much. Ms. Harman.

      TESTIMONY OF HON. ELIZABETH M. HARMAN,\1\ ASSISTANT 
 ADMINISTRATOR, GRANTS PROGRAM DIRECTORATE, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Harman. Good afternoon. Chairman Carper, Ranking Member 
Brown, Dr. Coburn, and other Members of the Subcommittee. My 
name is Elizabeth Harman. I am the Assistant Administrator for 
the Grant Programs Directorate (GPD) at the Federal Emergency 
Management Agency, part of the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harman appears in the appendix on 
page 50.
---------------------------------------------------------------------------
    On behalf of Secretary Napolitano and Administrator 
Fugate--
    Senator Carper. I would just ask, do not call it GPD.
    Ms. Harman. OK.
    Senator Carper. I am not big on acronyms, just so you know.
    Ms. Harman. We will go with Grant Programs Director.
    Senator Carper. That is great or just call it the 
Directorate.
    Ms. Harman. Thank you.
    On behalf of Secretary Napolitano and Administrator Fugate, 
it is my pleasure to appear before you today to discuss the 
grant management practices within FEMA. FEMA grant programs 
have significantly contributed to the security and 
preparedness--
    Senator Carper. If you could slow down just a little bit. 
If you use 6 minutes that is OK.
    Ms. Harman. OK.
    Senator Carper. If you use 16 minutes, that is another 
problem.
    Ms. Harman. I will not go to 16 minutes. I promise.
    Over the past 10 years, these programs have provided more 
than $35 billion in Federal funds to enhance the capabilities 
to plan, prepare, prevent, respond to, and recover from both 
natural and terrorist events. Over the past 10 years, we have 
also made progress in how these grants are managed and 
administered.
    Since its creation, the Directorate has matured as an 
organization. In the past 2\1/2\ years, we have made 
significant strides and improvements to our operations, 
focusing heavily on the development, management, and oversight 
of FEMA grant programs.
    These improvements include managing grant closeouts, 
enhancing grant management information technology (IT) system, 
and expanding our monitoring activities both programmatic and 
financial. The ultimate responsibility for management and 
oversight of FEMA grant programs rests with the Grant Programs 
Directorate.
    As of Fiscal Year 2011, the Grant Programs Directorate was 
experiencing delays in processing grant closeouts for FEMA's 
grant programs. These delays resulted in significant backlog of 
open grants which were several years past their period of 
performance end date.
    Our Directorate identified solutions to address the 
immediate closeout of awards as well as to establish long-term 
goals to support ongoing sustainability of closeouts that would 
mitigate future delays.
    Our Directorate conducted a current State assessment of the 
grant closeout process, evaluated our universe of open and 
closed grants, coordinated with related stakeholders to 
identify process improvements, and developed and implemented a 
closeout manual to detail the process and enhance stabilization 
and standardization.
    Through a phased approach, our Directorate initially 
focused its efforts on grants awarded in Fiscal Years 2005 and 
prior; and within the first 3 months of 2011, we effectively 
closed out 588 grants. To date, we have successfully closed 
8,000 of 14,000, going back as far as 1997.
    Moving forward, we are currently concentrating our closeout 
efforts on the closeout of all Fiscal Year 2007 by March 31, 
2013, in conjunction with all eligible Fiscal Year 2008 through 
2010 grants.
    Our Directorate has taken a proactive approach in ensuring 
that all current and future grants are closed in a timely 
manner. To sustain and maintain continued progress on this 
effort, we have implemented a tracking system designed to 
identify grants nearing closeout within the 30-day period as 
well as developed a grant closeout guide defining roles, 
responsibilities, and processes for stakeholders.
    To fulfill FEMA's strategic initiative of consolidating and 
automating the entire non-disaster grants management lifecycle 
into a single system, we have developed and implemented the 
Non-Disaster Grant Management System. This system further 
enhances the grant management infrastructure of FEMA 
preparedness grant programs.
    We began accepting applications in the system in Fiscal 
Year 2011 and we currently use it to manage approximately 20 
different preparedness programs. When fully implemented, the 
system will consolidate all of FEMA's non-disaster grant 
programs into one comprehensive system that covers the entire 
grant management lifecycle.
    The expansion of this system and its improved functionality 
will provide FEMA with a flexible system that can quickly adapt 
to changing business needs, reporting requirements, and 
performance metrics.
    With regards to financial and programmatic monitoring, FEMA 
has launched a long-term solution. This approach implements 
risk management principles to direct scarce monitoring 
resources to grantees and programs with the most need.
    As part of a multiyear process, FEMA has refined criteria 
for deciding which programs to monitor, standardized regional 
financial and program monitoring activities and expanded 
ongoing oversight activities to ensure early identification of 
any issues.
    This methodology builds upon the established monitoring 
approach and will drive FEMA toward continuously advancing his 
grants management capability.
    The Fiscal Year 2012 monitoring plan lays the foundation 
for future risk-based monitoring which supports DHS's risk 
management philosophy.
    FEMA plans to continue to further refine this approach. We 
will begin focusing our efforts on the development of a unified 
financial and programmatic monitoring plan for Fiscal Year 
2013.
    The purpose of this integrated approach will be to 
encourage and promote the coordination of activities and 
communication between financial and programmatic monitoring 
staff and build the foundation for robust integration into 
Fiscal Year 2014.
    Over the last several years, FEMA has strived to improve 
how our grants have been managed and administered fiscally and 
programmatically. I believe we have made significant progress 
and improvements in that area and will continue to do so moving 
forward.
    Mr. Chairman, Ranking Member Brown, and other Members of 
the Subcommittee, this concludes my statement and I am happy to 
answer any questions you may have.
    Senator Carper. Good. Thanks for that statement.
    Ms. Gunderson, you are recognized.

TESTIMONY OF NANCY J. GUNDERSON,\1\ DEPUTY ASSISTANT SECRETARY, 
  OFFICE OF GRANTS AND ACQUISITION POLICY AND ACCOUNTABILITY, 
          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Gunderson. Chairman Carper, Ranking Member Brown, and 
Members of the Subcommittee, thank you for this opportunity to 
discuss the Department of Health and Human Service's grants 
management policies and practices.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gunderson appears in the appendix 
on page 59.
---------------------------------------------------------------------------
    As the Deputy Assistant Secretary for Grants and 
Acquisition Policy and Accountability, I am responsible for 
providing department-wide leadership in the area of grants and 
acquisition management. My office oversees and supports the 
Department's 13 grants management offices and 10 procurement 
activities as they award and administer grants and contracts in 
fulfilling the Department's mission to enhance the health and 
well-being of Americans.
    As the largest Federal grant making organization and one 
that manages a great variety of grant programs, the Department 
is often called upon for leadership and advice in the area of 
grants management.
    We proudly serve as a managing partner of grants.gov, the 
Federal-wide site used to find and apply for grants 
opportunities.
    As co-chair of the Council on Financial Assistance Reform, 
we are engaged in the Office of Management and Budget's 
Federal-wide efforts to streamline existing grants 
administration policies.
    Our grantees provide vital services and conduct important 
research, all for the benefit of the public; and therefore, it 
is in the Department's and the public's best interest that our 
grantees succeed. And, I would like to highlight some of our 
grants management practices and policies.
    Our agencies provide technical assistance to facilitate 
grantee performance and their compliance. They also monitor 
grantee progress over the project's lifecycle. Grantees are 
required to submit financial reports, quality performance 
measures, and annual and final progress reports, all of which 
provide assurance that the grant funds are expended in 
accordance with the original purpose and intent of the grant 
program.
    With regard to grant closeout, this process reflects the 
culmination of the business relationship between the Federal 
grant program and the grantee and is a vital step in ensuring 
accountability of the grantee and the financial integrity of 
the program expenditures. When the financial reporting and 
expenditure information come together, the grant may be closed 
out in our payment management system.
    As reported by the Government Accountability Office, the 
Department has made progress in its closeout effort. It was 
noted that the total amount of undisbursed balances and expired 
Federal grant accounts was over $200 million less in 2011 than 
the amount previously reported in 2006, while during this time 
the overall amount of grant expenditures and disbursements 
increased by 23 percent.
    In 2011, at the Department, we identified 60,000 grants as 
eligible for closeout compared to 64,000 in 2006 and closed 
approximate 26,000 of the eligible grants in 2011.
    Additionally, the Government Accountability Office also 
reported on grants that remained undisbursed more than 5 years 
past the grant end date, and we recognize that more work 
remains to close out grants that have long expired and to keep 
up with the overall workload.
    My office led an accelerated closeout effort last year to 
get ahead of grants closeout and prevent a sizable backlog from 
occurring. In addition to focusing on closeout efforts on 
grants facing funds cancellation, which generally occurs five 
Fiscal Years after the funds were appropriated, we asked our 
agencies to concentrate also on Fiscal Year 2008 funded grants 
that had more recently expired.
    This effort resulted in the de-obligation of $116 million 
from a total of 2,700 grants and also revealed some of the 
systemic problems and challenges we have between our grants 
systems, the payment management system, and our grantees' 
financial reports.
    We plan to keep this accelerated closeout initiative 
moving, update our grants policies by the end of the calendar 
year, resolve the system challenges within 24 months and 
supplement our agencies initiatives to dedicate staff to grants 
closeout by establishing an intradepartmental grants closeout 
task force.
    Finally, as part of the Secretary's commitment to program 
integrity, we are collaborating across the Department to 
further improve our grants closeout practices. Incorporating 
grants closeout into our program integrity initiative will 
ensure that closeout remains a departmental priority, 
facilitate a consistent method to assess on a program-by-
program basis the challenges associated with closeout, and 
provide an opportunity to share the agency's risk mitigation 
practices across the Department.
    I have spoken with the agencies reflected in the report 
that have aged grants expirations. The challenge they have in 
closing these grants primarily involved discrepancies between 
the authorized, expended, and disbursed amounts recorded in the 
grants and financial and payment management systems.
    These grants require significant analysis and coordination 
to ensure that all accounts are equal and that the grants may 
be closed out. The agencies are taking steps to closeout these 
grants.
    The Department strongly agrees with the need to protect 
taxpayer dollars and is committed to doing so as we work to 
support our mission.
    Thank you for the opportunity to appear before the 
Subcommittee about this important topic, and I am glad to 
answer any questions you may have.
    Senator Carper. Thank you, Ms. Gunderson.
    Mr. Czerwinski, all yours.

  TESTIMONY OF STANLEY J. CZERWINSKI, DIRECTOR,\1\ STRATEGIC 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Czerwinski. Thank you, Chairman Carper and Ranking 
Member Brown, Dr. Coburn, Members of the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Czerwinski appears in the 
appendix on page 63.
---------------------------------------------------------------------------
    Thank you both for asking us to be here as well as asking 
us to do the work that we are here to talk about. One of the 
themes that I am going to touch on today is the importance of 
congressional oversight in achieving results.
    Back in 2008, you asked us to look at undisbursed grants. 
What we found was over $1 billion sitting in one payment 
system, the one that HHS runs, and these funds had not been 
disbursed even though their grants had expired. You 
subsequently asked us to take another look at this situation in 
2011. This time we looked at the grant accounts that HHS has 
along with the 12 agencies that it services. That is about 70 
percent of all grants. This time we also added in the 
Department of Treasury that services their own grants as well 
as those for other agencies for about 10 percent.
    The story at Treasury was really interesting because we had 
not looked at Treasury last time, and this time when we went in 
there 4 years later, they said, we have been waiting for GAO to 
come for 4 years.
    What they had said was that you have been asked by Senator 
Carper and Coburn and we know they will be asking you to come 
back. And, when you did your report in 2008, we thought that 
you would be here to ask and we wanted to be doing some things 
that we could actually show improvement on.
    At that point in 2008 Treasury set up a dormant account 
report. They also went to all the agencies they service and 
said that GAO will be here to ask questions and we want to be 
able to show improvement.
    We looked at what happened from 2008 to 2012 and we saw 
roughly about $100 million improvement over that 4-year time. I 
can tell you that would not have happened without congressional 
oversight.
    Similarly, what we have found in our work is when the 
inspectors general, GAO, or internal auditors look at an 
agency, it raises the visibility of what is going on and we see 
actions taken.
    This is similar to what Ms. Gunderson talked about with 
HHS. The Inspector General for HHS did four reports looking at 
grants that should have been closed out. Their internal auditor 
in their performance of accountability report identified grant 
closeout as an ongoing, lasting management challenge.
    As a result, HHS took action, and the results that Ms. 
Gunderson talked about today are really a good indication of 
that.
    This goes back to a point that you and Senator Coburn 
mentioned at the hearing that Comptroller General Gene Dodaro 
did on the Data Act. You only get improvement when agencies 
step up, take individual accountability and carry out what they 
are supposed to be doing.
    In terms of grant closeout, there is essentially a process 
that they have to follow step by step, grant by grant; and the 
work that you asked us to do this time around really gives a 
good roadmap for how to do that.
    You asked us to look at the oldest. You asked us to focus 
on the biggest. And, as the chart\1\ that you have up there 
shows, over $100 million sits in accounts that had been dormant 
for 5 years or longer.
---------------------------------------------------------------------------
    \1\ The chart referenced appears in the appendix on page 77.
---------------------------------------------------------------------------
    What we also found, looking at the biggest, was that about 
1 percent of the grants in terms of numbers are over $1 
million. Yet, they account for one third of the monies sitting 
there unspent.
    If agencies follow the roadmap that you laid out and focus 
on the oldest and biggest, they will get a good leg up on going 
forward the way they should on this.
    It is really important that agencies close out the grants 
because it allows for more efficient and effective use of the 
Federal funds.
    Right now that money is sitting there; and if they can 
collect it, it can either go back to Treasury or agencies can 
redirect it for other purposes.
    Now, grant closeout is just one step in the grant making 
process but it shows the importance of grants. Chairman Carper, 
as you mentioned in your opening statement, over $600 billion 
in grants went out this past year.
    That goes out in over half a million individual grant 
awards. Also, there are about 1,000 different grants programs. 
We are talking about one in almost every five Federal dollars 
going out through grants. This is a really important process.
    In your oversight agenda for next year, we are hoping to 
help you out. We are doing some work at your request, Chairman 
Carper, and your request, Ranking Member Brown, to look at a 
number of grant issues. I just want to lay those out for a 
moment before I close my statement.
    First, we are looking at streamlining grants. Second, as 
you mentioned in your statement, Chairman Carper, we are 
looking at performance measurement. What are we getting with 
grants? And finally, internal controls.
    On streamlining, in 1997 Congress passed PL 106-107 and PL 
106-107 was aimed at improving the way we apply for grants, the 
way we manage them, and the way we oversee them; and we know 
that, 15 years later, we are not where we should be.
    And so, at your request what we are going to be looking at 
where we stand on streamlining efforts to date and hopefully 
come up with recommendations to improve.
    Now, one of the questions that people always ask is, What 
are we getting out of our grants? And that is probably one of 
the hardest answers to come up with--How do you measure 
performance?
    But, there are some grantees and some grantmakers who have 
done some very innovative things trying to measure performance. 
What we are going to do, at your request, is to look at those, 
see what has worked, see what has not and hopefully have some 
best practices for others to draw on.
    Finally, as you know, there have been a number of reviews 
raising a lot of problems with how we go about either managing 
or overseeing grants. Often that comes back to internal 
controls.
    So, once again at your request, we will be looking at how 
internal controls can be improved on by grant makers.
    Going forward, we hope this will help you with your 
oversight agenda. And, I have to tell you, I have done a lot of 
hearings and I have worked with a lot of committees--we love 
working for people like you.
    What you have is a dedication to accountability that we 
share, what you have is a discipline for carrying out oversight 
over the long haul, and a determination to make change. And 
frankly, that is what we at GAO live for.
    We look forward to helping you all the way through.
    Senator Carper. What we also have is really dedicated 
Subcommittee staff on both sides and we are grateful for the 
terrific work that they do and we see you as a real partner, 
OMB as a real partner, the IG as a real partner, and the 
agencies as well. We are in this together and I think we are 
making some progress and that is encouraging. Senator Brown.
    Senator Brown. Thank you, Senator Carper.
    I guess in listening to the testimony, one of the questions 
I have, I think I will start with FEMA, at what point do you 
terminate the grant if it has not been disbursed? I mean some 
of them go for 10 plus years, number one.
    If you cannot verify how the money is spent, is there any 
mechanism to, and you believe that there is a fraud perpetrated 
or just there is some type of negligence, actual, per se, what 
do you do?
    Ms. Harman. Thank you. Those are excellent questions.
    With regards to termination of the grants, the majority of 
our grants are really focused on preparedness and preparing our 
Nation to build capabilities so that we can respond to and take 
care of any events.
    Many of those come in the form of target allocations and 
are driven through a risk formula that is in statute of the 9/
11 Act. There area lot of grants over the years that have been 
proscribed with statutory minimums going to each stakeholder. 
Other grants, we are now moving to more of a competitive, more 
of a bottom-up needs approach.
    I think you are going to see some changes as we move to 
that with regards to un-obligated bounces that are out there. 
We have more of a request for funding that is needed as opposed 
to a dollar amount that has been calculated, based off risk for 
stakeholders to spend within a defined period of time.
    Traditionally, our period of performance is a policy 
decision. In the past years, it has been a 36-month period of 
performance. We are moving more to have a 24-month period of 
performance effectively this year as we roll grants out the 
door.
    We work very closely with our stakeholders to ensure how 
that money is being spent. It has to tie currently to their 
State homeland security strategies. In the future, it will be 
tied to their threat hazard identification risk assessment.
    You may have heard the term THIRA thrown around. It is an 
acronym. However, if you have heard of that, that is what they 
should be spending that money toward.
    With regards to terminating grants, we have terminated 
grants in cases of fraud or waste or things that have been 
identified; but with regards to spending the dollars, it takes 
a long time to build capabilities and build preparedness.
    Senator Brown. Does it take over 10 years?
    Ms. Harman. Well, what I can tell you is from the FEMA 
preparedness grant programs that we have obligated more than 
$35 billion over the last 10 years. Of those dollars, our 
average return to the Treasury after closeout is roughly 1 
percent.
    There are some grant programs that a little bit more goes 
back for a variety of reasons. I can chat with you about 
whether it is matching funds or other constraints in the 
program.
    Senator Brown. I just want to make sure you have in place a 
mechanism in the event that it is clear that they are not going 
to fulfill their grants request. If you find out that there is 
a fraud or some type of negligence that there is recourse.
    Ms. Harman. Absolutely.
    Senator Brown. We can follow up on that off-line because I 
do want to shift gears just a little bit, I am going to ask the 
same question to Health and Human Services.
    Mr. Werfel, thank you for coming back. One of the things 
that is always perplexing to me is that we are awarding grants 
of substantial money to people that owe us a tremendous amount 
in delinquent taxes.
    How do we address that? How is that allowed? How do we know 
that, when they get their grant, a portion of that money is 
actually going to paid back, the money that they owe us anyway?
    Should there not be just a straight prohibition on those 
types of awards? If you owed taxes to the Federal Government 
you are not getting any grants until you pay it off.
    Mr. Werfel. Thank you for the question, Senator. It is a 
very straightforward question. Unfortunately, there is not a 
straightforward answer.
    Senator Brown. Of course.
    Mr. Werfel. Let me amplify why.
    The status of our taxpayers and all the elements of that, 
who they are, their household size, their adjusted gross 
income, and their delinquency status is all protected 
information. Section 6103 of the tax code provides significant 
constraints on the IRS's ability to release that information, 
not just publicly but within and among Federal agencies as 
well. We certainly do not have unconstrained access.
    Senator Brown. It does not need a congressional fix then?
    Mr. Werfel. It potentially could. But it is a trade-off. 
There is a trade-off. There is a balance there in terms of 
privacy and protection of data versus sharing that information 
for program integrity purposes.
    As the world exists today, Federal agencies do not have 
real-time access or a way of gauging a recipient's tax status 
in terms of whether they are delinquent or not.
    Senator Brown. What about if there is a Federal lien? Would 
these agencies check for a Federal lien or State liens?
    Mr. Werfel. When you get into certain levels of 
delinquency, the more severe delinquencies, others certain 
public indicators start to emerge such as--
    Senator Brown. I think $750 million is kind of severe. 
Obviously, it is just not one entity.
    Mr. Werfel. Right.
    Senator Brown. At what point, I guess is what I am getting 
at. I think you know the problem. I think you know my concerns 
and probably Senator Carper's.
    I would love a suggestion as to how you feel we should 
address and fix it, whether it is through Executive Order, a 
legislative fix, an administrative fix. I just want to fix it.
    Mr. Werfel. Right. There was legislative action recently. 
Several appropriations bills required that agencies consider 
suspension and debarment for issues where we have a recipient 
that is either a convicted felon or has an outstanding tax 
liability, and we are currently working on guidance to 
articulate how agencies will do that. Again, I just want a 
caveat that the constraint we have here is getting access to 
the information on who is delinquent or not and that makes the 
process a little bit more clumsy in terms of us executing to 
make sure that--
    Senator Brown. Right. I want to find a way to streamline 
it, though, and maybe we can work with your office.
    Mr. Werfel. Something to work on.
    Senator Brown. Thank you.
    Then, getting back to you, Ms. Gunderson, I know it is kind 
of the same question, but Health and Human Services has a large 
percentage, $794 million in undisbursed grant money.
    While there may be reasons why these accounts have not been 
closed out in the short-term, why have they not closed out 
expired accounts that are 3 years or older? Kind of the same 
question I asked earlier.
    I mean, at what point do you say, OK it is clear that they 
are not going to fulfill the grant award and we need to get the 
money back. Also, it is clear that there was some type of fraud 
or negligence.
    Do you have a mechanism to recoup the money?
    Ms. Gunderson. Thank you. Of the $795 million, about $595 
million of that was reported by the GAO to be accountable to 
HHS's programs.
    Senator Brown. Thank you for that correction.
    Ms. Gunderson. We are a portion and subset of that, but 
again a large subset of that, and it is a significant amount of 
money. We believe the amount is slightly overstated because we 
have since found, through our own analysis, that some of those 
grants had actually been extended and performance was not yet 
completed.
    Senator Brown. Well, it says $400 million.
    Ms. Gunderson. Even in that case, it still is a significant 
amount of money. We are engaged in closing out that effort.
    We have since focused, as I mentioned earlier, a lot of our 
closeout effort on the more recently expired grants and this 
audit brought to light the need to close out those ones that 
have long been expired.
    As one of the examples, one of our agencies has closed out 
over 17,000 of those aged grants this Fiscal Year, and 8,000 of 
those were funded from Fiscal Year 2007 or prior. So, we are 
making progress.
    Senator Brown. What about the earlier ones? The ones that 
are 10 years and over.
    Ms. Gunderson. Those ones are the Fiscal Year 2007 prior, 
about 8,000 from one agency alone have been closed out. We are 
making progress and putting our attention towards this.
    Senator Brown. I do not want to take Senator Carper's time. 
I may come back to this. Thank you.
    Senator Carper. Did you want to finish your sentence?
    Ms. Gunderson. I did not know if you wanted me to address 
the other half of your question.
    Senator Carper. Go ahead.
    Senator Brown. Yes, please thank you. I did not want to 
take the Chairman's time.
    Ms. Gunderson. That is OK. We do have mechanisms and 
processes to be able to terminate a grant if need be when a 
grantee is not performing or is underperforming. A great 
majority of our grants.
    Senator Brown. How about fraud and negligence, though?
    Ms. Gunderson. And in those cases as well, and having those 
issues referred either to our Office of Inspector General for 
action as well.
    A great majority of our grants are awarded to State and 
local governments. We do work in partnership with them to 
ensure that they are performing against the grants that we do 
award with them.
    Senator Brown. Do you have a mechanism though? For example, 
I just told my staffer, hey, I want you to go through and see 
how many are outstanding in Massachusetts because I want to 
write them and call them and say, did you know there may be a 
turn over with personnel so we can get that grant out the door.
    It is about jobs. It is about obviously maximizing the 
grant opportunities in your State so you are not falling 
behind.
    Is there something that you all have that you can let us, 
as legislators, know that your State has $300 million that has 
not gone out the door yet. I am sure you would like to know 
that, right, Tom?
    Ms. Gunderson. We can provide that information through our 
payment management system and we can provide information about 
all the awards that your States received through our Tracking 
Accountability in Government Grant System.
    Senator Brown. Thank you.
    Senator Carper. Let me direct my first question to Mr. 
Werfel.
    I understand from Peter Tyler, who is the fellow sitting 
over my left shoulder here, that yesterday your office put out 
an important document to the Federal agencies, controller 
community, that specifically addresses the issue of expired 
grants.
    In your alert, I am told, your alert to agencies 
highlighted the importance of closing out grants in a timely 
manner, the subject that we are talking about here today; and 
it specifically mentioned the importance of curbing waste and 
fraud which we have talked about here again today.
    And, we believe that this is an excellent example of the 
Administration taking positive, proactive action when a problem 
becomes known as this one has.
    We understand the communication I mentioned also described 
the many issues and recommendations that came out of GAO. And, 
I just wondered if you might comment for us on yesterday's 
alert, and also describe any specific additional steps that the 
Administration is contemplating taking to further improve the 
timeliness of agencies in performing grant closeouts and the 
associated audits.
    Mr. Werfel. Thank you, Senator.
    I think it is an example of this entire hearing and the GAO 
report and our response I think is an example of how sometimes 
in small ways and through small steps we can make significant 
progress in terms of understanding the nature of deficiencies 
that are occurring in financial management and work 
collectively to close them out.
    GAO's report, I think, prompted by this Subcommittee 
highlighted and area that we did not have full insight on. On 
an individual agency basis I think they did; but collectively 
across the community whether it be the CFO council or the 
grants council that we recently created, looking at that issue 
in its entirety, we are able to say, OK, cross government we 
have varying levels of performance.
    I think you are hearing from two witnesses today whose 
agencies are very actively engaged in this issue with or 
without OMB issuing directions or alerts.
    But, we have other agencies that self reflective can say 
this is an area that we have not focused on and the fact that 
it is being raised, whether it is by our Inspector General or 
GAO, there is something we can do about it.
    So, we get our communities together. We just, for example, 
met yesterday with every CFO, had a robust discussion on a 
whole host of issues probably all important to this 
Subcommittee.
    Senator Carper. Give us a couple of examples.
    Mr. Werfel. Of what we talked about?
    Senator Carper. Yes.
    Mr. Werfel. Well, we talked about the implementation of do-
not-pay, its importance, and made sure that every agency was on 
track in terms of thinking about their signing up for that 
solution. And, we talked about--
    Senator Carper. How was the reaction? That is something 
that is obviously of great interest to us.
    Mr. Werfel. I think the reaction is very positive. The way 
we talked about it, just to share with you, we consider the use 
of data and leveraging the information age in new and effective 
ways as the major game changer in the area of improper 
payments; and the issue is how well the agency is positioned to 
move from being in an embryonic phase of using data to a more 
sophisticated one. We have a few agencies that are off and 
running at 40 yards down the football field and they are doing 
excellent work. HHS is certainly one of them with their CMS 
fraud lab and all the forensics they have going on.
    Senator Carper. They have a lot of money at stake there. 
So, good to hear.
    Mr. Werfel. Yes. It is the right agency to be advancing 
down the football field ahead of everyone.
    The other agencies are not in that same place; and the 
point is that, by signing up for the do-not-pay solution, it is 
kind of a, we are going on the journey together; and Treasury 
and OMB are helping agencies lead because we are taking them on 
a journey to start with some very basic data matches against 
the death master file, against the occluded party list.
    But we are building on that to say there are more 
sophisticated analysis that can take place. And, Treasury is 
going to house that data analytics center for the agencies. If 
they do not have the wherewithal right now to get 40 yards down 
the football field on their own, the do-not-pay solution is 
kind of a collective amongst the Federal agencies to move them 
along.
    And, I think there is a lot of excitement and energy around 
the help that the do-not-pay solution will provide agencies in 
helping them along. So, that is an example.
    But, we also talked about grants closeout. I talked about 
the elements of the Controller alert that was issued. This fell 
into a category of an area where the agencies felt like, with 
many GAO reports, let us know the problem, highlight it for us 
so that we can understand the nature of its, and then talk to 
us about the different types of strategies that are at play.
    So, looking at, for example, tracking, performance targets, 
the right times and places to unilaterally close out grants 
just when certain criteria are hit, all of those things are 
things that, in response to the Controller alert, that agencies 
are reviewing and we will continue that dialogue going forward.
    Senator Carper. OK. Mr. Czerwinski, let me just ask how 
would you react, if you will, to the news that Mr. Werfel and 
his team put out the document yesterday to the Federal agency 
controller community that specifically address these expired 
grants?
    Mr. Czerwinski. Thank you, Chairman Carper, and we are very 
pleased to see that.
    As you will recall, this is stemming from a recommendation 
that we made in 2008 to you. So, to have the action taken now 
is very gratifying to us. And, going back to my statement, I 
think this is testimony to essentially congressional oversight.
    In terms of the actual content of the alert, we agree 
completely with the concept; and that is, by raising the 
attention, that you will get better performance; and then 
again, the implementation, the kind of things that I talked 
about emphasizing those that are most at risk, the oldest, 
largest.
    So, we are in very much agreement with where OMB is going 
with this.
    Senator Carper. OK. Good.
    This is a question, to some extent you all have already 
spoken to this but I am going to ask you just to drill down a 
little bit more, just reiterate what you have already said.
    But, I am going to ask Ms. Gunderson and Ms. Harman, if you 
would just comment a bit more on the steps that you all are 
taking to address within your own Departments the expired 
grants.
    Ms. Gunderson. We have issued department-wide guidance to 
accelerate the close out initiative; and as I mentioned, my 
office engaged in an accelerated closeout team effort last year 
and really had our agencies focus in on the Fiscal Year 2008 
funded grants that had recently expired.
    Senator Carper. What was the catalyst for that, for you all 
doing that?
    Ms. Gunderson. It was again as a result of some of the OIG 
reports that we had seen, our auditor's reports reflecting a 
concern with it in our financial statements, and just a need to 
move forward and again breakdown that backlog that creates the 
cumulative effect of these grants having expired and being 
added to the pool to be closed out.
    So, we wanted to get them ahead of the game in addition to 
the efforts that they took to focus in on the grants that were 
having funds canceled or those older ones. So, that was one 
main initiative.
    We've asked our agencies to dedicate staff to this and many 
have already done that, or done that on their own, several in 
those cases. I personally have this in my performance plan to 
ensure that our Department increases grants closeout and 
several of our agencies have also taken that same initiative.
    Senator Carper. That is good. Ms. Harman.
    Ms. Harman. With regards to FEMA, the need for closeouts 
was really identified through our Internal Controls Branch that 
was created also in January of last year. I realigned our 
Directorate to create an Internal Controls Branch to sort of 
highlight what do we really need to be working on.
    Closeouts was one of the biggest ones. So, although we did 
not get to a full branch, we did put together a task force to 
sort of do an assessment and say, what are we dealing with 
here?
    Our grants have a very big spotlight on them. Everyone is 
very interested in what are we doing with preparedness and how 
much money is going there; and as such, we send those financial 
documentation to the Hill on quite a regular basis, quarterly.
    The drawdown issue was sort of coupled and hiding in there 
and a lot of the discussion was never on drawdown. It was 
really, well, we cannot really deal with drawdown.
    When we look at the numbers that we were sending and what 
we were reporting, it was, wait a second, some of that money 
has already gone back to the treasury. We need to take a look 
at this.
    So, coupled with closeout and internal controls, it really 
highlighted a lot of concerns for us. So, that task force was 
able to do an internal assessment; and as I mentioned, we have 
already closed out 8,000 of 14,000 awards.
    All of those awards of 2007 which will be closed, this will 
be that 5-year mark where money goes back to Treasury as of 
September 30. Those grants will be closed. Our mark is March 
30, 2013, and all open grants that are eligible and expired to 
closeout will be closed by the end of the Fiscal Year 2013.
    Senator Carper. Mr. Werfel and Mr. Czerwinski, would you 
say that these two agencies are good examples of what is going 
on across the Executive Branch or are they agencies that are 
doing an especially good job or are they the laggards?
    How would you characterize the job they are doing in this 
regard?
    Mr. Czerwinski. I would say they are probably on the 
leading-edge at this point by the focus they are placing on it. 
They may be very well leading-edge because their risks were the 
greatest to start with.
    Senator Carper. OK. Mr. Werfel.
    Mr. Werfel. Those are my exact sentiments. I think the work 
that HHS and DHS are doing are commendable. In some ways in 
terms of the directions that OMB has issued yesterday, these 
agencies are on top of many of those elements in terms of 
tracking and understanding.
    But, they are driven in some cases by risk; and in 
particular I think HHS being the largest grant making agency, 
there is a lot of focus from their OIG and from oversight 
entities on their grants portfolio and some issues have 
surfaced over the years and they have organized themselves to 
prioritize the grants management. They look at these indicators 
and they delve deeper into them to understand what do these 
accounts and their hold over balances mean, and both of these 
agencies are evaluating them.
    I think it is now incumbent upon the rest of the community, 
as generated by the GAO report and in this hearing, to follow 
suit, understand the data better, and figure out where there is 
need for improvements.
    Senator Carper. OK. Good. Senator Brown.
    Senator Brown. I just want to go backwards just for a 
minute, Mr. Werfel.
    So, there is no sharing. I know the privacy issues. Why 
then do the agencies as part of their format when they are 
putting up their grant application say, let us know, do you 
have any tax arrearage and/or under the pains and penalties of 
perjury? I hereby certify that I have paid all State and 
Federal taxes and no outstanding monies are owed to any 
entities thereof.
    Why can we not do something like that?
    Mr. Werfel. That is definitely an option that is under 
close consideration. I mentioned earlier that the legislation 
that was recently issued requires us to have at least some 
basis of knowledge of taxpayers status in order to consider 
suspension and debarment. The self-certification of the 
recipient comes out first and foremost as a major and 
significant option.
    Senator Brown. We just did insider trading in the STOCK 
Act, and we are signing our documents when we are doing our 
ethics documents. We are signing under the pains and penalties 
of perjury.
    I would think that somebody applying and getting millions 
of taxpayer dollars, the least they could do is certify that 
they are in compliance with all applicable tax laws.
    I would suggest whomever is making that decision, let us 
get it done.
    Mr. Werfel. It is definitely under consideration as a 
component.
    Senator Brown. All right. Also, the agency gave notice, 
thankfully yesterday, as you were just discussing.
    Did you put in penalties or suggestions of penalties if 
you, in fact, do not do it? For example, you are sending out a 
notice to the agencies of the things they need to do. Is there 
anything that, if you do not do it, this is what is going to 
happen, your budget is going to be cut, or you are not going to 
be eligible to issue any grants, or is there some type of 
penalty?
    Mr. Werfel. Not at this stage and that is something we can 
talk about as an approach, as a strategy. The approach that we 
tried to take at OMB in working with the agency is to do things 
in stages, and particularly we get a lot of feedback from the 
agencies in our relationship with them.
    They often tell us, tell us what the issue is, not the how, 
and allow us to fix the issue and defer to our expertise.
    So, yesterday what you saw us telling them what the issue 
was, making sure that we are a community looking last at what 
the issue is, making suggestions on how to do it, but not 
necessarily dictating the exact procedures that the agencies 
will take.
    If that does not work and we move forward now that this 
issue is squarely on our radar screen, we would move to a next 
stage of development of the process with the agencies of more 
directive, maybe a little bit more, I hate the term, but 
micromanagement. Whatever term you want to use, but much more 
specific requirements would be put in place as we grow and 
develop on the issue.
    Senator Brown. So, what time frame is that, like, at what 
point do you say, this is not really working. The thing that is 
kind of gnawing at me is that we are talking, about a lot of 
money, and at some point we have to kind of get off our duffs 
and just move forward and get it back into the system.
    I know Massachusetts and Delaware, we would love to have 
that money back in the system to look for other ways to spend 
it or use it to pay down our debt.
    Maybe I am too anxious. I just want to get it done. However 
you can do that to basically light a fire with the agencies who 
are obviously, now that you are bringing it to their attention, 
now that we have a hearing and, they are making better efforts. 
I think it is a collective effort, us pushing it on our end, 
you guys hearing about it, you guys pushing it.
    Everyone is doing their job. I understand that. I want to 
take it a step further now and really I want to close out the 
accounts. There should be a working balance within these 
things, but not hundreds of millions of dollars. It just does 
not make sense.
    That being said, I would like to go back to Ms. Harman. 
What performance metrics do you have in your agency, or your 
agencies, or at the program level to evaluate how effective the 
grant was in achieving its purpose. As Senator Coburn 
referenced, they have a port emergency response, but they do 
not have a port.
    How do you figure out if somebody is actually doing what 
they are saying they are going to do?
    Ms. Harman. That is a really good question.
    We have a variety of grant programs as I mentioned earlier. 
Some of them are target allocations where there is a given 
amount of money that comes to a State and that is intended to 
be used on your State's strategic plan.
    During the application process, there is a review where 
they will submit investment justifications or projects and then 
there are milestones that are measured throughout the 
monitoring process for that.
    Other programs that are competitive programs similar to the 
port and transit programs undergo a significant review process; 
port in particular, those projects have to be reviewed by the 
captain of the port in addition to having a national review 
panel.
    If those dollars, through monitoring, are being used for 
anything other than what was approved, we usually know about it 
pretty quickly and steadfast.
    There was concern, I realize, with the memo and the 
direction that came out earlier in the year to allow greater 
flexibility with some of the open dollars that are out there. 
We are ensuring, as we work with our stakeholders one on one, 
that those dollars under those individual grant programs are 
respective of the integrity of that grant program.
    If it is a port grant program, any of those dollars being 
spent need to be focused on port and maritime security, not 
other things.
    There are mechanisms there that are in place for that. With 
regards to what we know outside of the administrative factors 
of monitoring the grants and the performance and the 
stakeholders know what we are doing, holistically performance-
wise we know exactly what we have purchased, who has purchased 
what at what State level, at what FEMA region to look at the 
capabilities that has been built.
    Senator Brown. So, is there anything that you all, I am 
talking about you two in the middle, is there anything that you 
need us to do? Do you have enough bodies to do the job? Is it a 
personnel thing that you need? More processors or you need more 
computers? What is it that is kind of leading up to a good 
effort but maybe we could make a better effort?
    Ms. Harman. It is a variety of issues that go on with 
managing grants. We have approximately 20,000 open grants 
within FEMA that we manage. That does not include disaster 
grants. I am talking sort of preparedness, mitigation types of 
grants.
    Senator Brown. Yes.
    Ms. Harman. So, there is a large work load there.
    We are using currently sort of risk factors or key 
indicators to determine where should we be doing the monitoring 
and where should we not. Obviously, we cannot monitor every 
single one of those grants so there has got to be some 
indicators that are going to lead us to monitor some more so 
than others.
    So, we are doing a lot of that. But, there is a capacity 
there that is needed with regards to personnel, with regards to 
funding.
    Currently, the funding that supports FEMA is a percentage 
of the overall amount of grants that are appropriated each 
year. That amount fluctuates year to year.
    We had a $4 billion budget at one point. I have a $1 
billion budget this last year at the Secretary's discretion to 
allocate. It is still the same number of grants that go out the 
door that need to be monitored. So, it still continues to build 
up.
    I think our biggest challenge that we have which we are 
making progress on is to move to a consolidated grant 
management system, the IT system that we use.
    The grant programs Directorate within FEMA is a combination 
from DHS programs, Justice programs, and legacy FEMA programs. 
With that combination back in 2007, came the people, the 
business processes, and the systems with that.
    In order for us to extract information when you or your 
staff are requesting, what did so and so do with this grant 
dollar, we are searching multiple systems to ensure that the 
query was correct.
    Systems for us is a critical portion of what we do, and we 
are making progress there but that is dependent on available 
funding and the capacity of the contractor and everyone else to 
consolidate all of these systems into one.
    Senator Brown. OK. The same question.
    Ms. Gunderson. I would add to what was said and as an ask 
associated with what we would need and it goes to what is 
required to report on progress.
    We had several programs that are similar, but the 
authorizing legislation requires different types of reporting 
and often those are among the same grantee community.
    We are confusing the grant community with the types of 
reports that we want. As an example of that, we have recently 
aligned 2 of our programs, related to FEMA's work, our hospital 
preparedness program and our public health emergency 
preparedness program. We have brought those programs together 
so they can align their programs, understand the types of 
reports that were required by the authorizing statutes and 
design a combined strategy to help facilitate a better 
demonstration of what the outcomes were of those programs.
    I guess I would emphasize, as these programs are authorized 
and put forward, an emphasis on some of the standard data that 
we can collect so that we do not create disparate reporting 
systems and have that duplication.
    Senator Brown. Yes, you are not duplicating your efforts.
    Ms. Gunderson. Right.
    Senator Brown. You just want to keep it simple.
    Ms. Gunderson. Right. Exactly.
    Senator Brown. Well, thank you all for your testimony.
    Mr. Chairman, I have to head out.
    Senator Carper. Thanks for being a part of this very much.
    I am going to give our audience a chance to take a nap if 
they want and I am going to ask a question of Mr. Werfel that 
no one else in the room might be interested in but I am.
    In my briefing materials that I read, Mr. Werfel, the term 
Single Audit Act came up, and that was actually something I 
worked on in my first year as a freshman member of the House of 
Representatives a while back.
    I remember once my State auditor, a fellow named Dennis 
Greenhouse, said to me, ``We need a Single Audit Act, and we 
need somebody to be the champion for the Single Audit Act in 
the House of Representatives.''
    I was looking for something to champion as a new guy, a new 
kid on the block, so that was one of the things I championed.
    My briefing materials indicated that the Single Audit Act 
needs a refresher. Could you just explain for us sort of the 
rationale, Mr. Werfel, for why we have a Single Audit Act, what 
has worked well, what has not, and why we need that refresher?
    Mr. Werfel. Absolutely. The history here is that, as a 
recipient of Federal dollars, before the Single Audit Act 
framework was in place, there was a lot of auditors descending 
from the Federal Government into State and local governments, 
universities, and elsewhere to do their audit work, we are the 
auditors from HHS, we are the auditors from Education, et 
cetera.
    And, there was a concern that there was a lot of overlap 
and stepping on each other's feet in terms of trying to figure 
out what the right audit footprint was.
    So, the notion was that we needed a framework to reconcile 
all of these various audit streams that were flowing down out 
of the Federal Government, recognizing that the dollars need to 
be audited, there needs to be strong oversight scrutiny and 
accountability but maybe there is a more rational way to do it 
in the single audit framework; and the Single Audit Act was 
born.
    And, OMB is charged with the responsibility essentially for 
issuing the regulations, although we call them circulars, that 
affect how the single audit framework plays out.
    In terms of a couple of different key questions, for 
example, who gets a single audit, in terms of how much money 
they get from the Federal Government, we set thresholds, and 
then what types of questions they are asked in their single 
audit framework.
    And, over the years there has been a whole host of 
different concerns raised about the single audit framework. One 
of the ones that we are very focused on is that the single 
audit is not always asking the question that is most central to 
the taxpayers bottom line.
    That is very important to me. I have gotten some feedback 
over the years from those that are in the field doing the work 
and in particular program managers or State comptrollers 
saying, oftentimes I read my single audit results from my State 
and there is a lot of, hum, I do not know really what to do 
with this information, it is not all that helpful to me as a 
manager versus in some cases I read the results and I say this 
is huge, it is significant, it is impactful, and it changes the 
way I am going to do my work.
    And, our response at OMB was we wanted to make sure that 
the questions that were being asked and the resources that were 
being deployed were more around the significantly relevant 
issues and less around the ones that were not eating helpful.
    So, when the President issued his Executive Order on 
improper payments in 2009, one of the things that is in that 
Executive Order is he asked OMB to explore the audit of dollars 
in the field and how they can be improved, and that led us to 
the single audit and it led us to some fundamental questions 
which is, are we asking the right questions in the single audit 
to get at that fundamental bottom line question of whether the 
dollars are being spent correctly, are we auditing the right 
entities, are we auditing where the risks are, because for 
every minute we spend auditing a low risk entity it is a minute 
not spent and a deeper dive not being done into an entity with 
a higher risk.
    And so, what we issued last February as part of our reform, 
and I do not think we need the law to change per se, it is more 
of our regulations that have to change, is how can we refine 
the process to get after this bottom line question more 
aggressively and how can we continuously improve this model.
    And, we floated three different ideas essentially. One was 
should we raise the threshold so that this block of audit 
resources that are in place are placed more squarely on higher 
dollar grantees than lower dollar grantees. That was one 
question we asked. We got a lot of diverse feedback on that.
    The second question we asked is should we narrow the set of 
questions that we are asking so that there are more at the 
bottom line of improper payments and so we can go deeper with 
that same audit footprint into the area of whether the money 
was spent correctly or not versus some of the other tangential 
questions that are being asked. We got a lot of good feedback 
on that.
    And the third is are we doing enough to be transparent and 
aggressive in follow-up and resolution of all the audit 
findings that surface under single audit, and there was clear 
consensus in the comments received that is an area of 
significant area of improvement.
    So, here is where we stand. We issued the notice. We have 
gotten public comment, and we are now getting ready to issue a 
more formal proposal, not the final, but a formal proposal for 
a second public comment period and then we will go final.
    And, we are currently grappling with those comments and 
trying to determine should we raise that threshold to gather 
the higher dollar grantees or is our risk distribution better 
the way it has been with the lower dollar grantees still 
covered by a single audit.
    And, the second question that we are grappling with is how 
much and whether to narrow the question footprint so that it is 
more centrally, and what are the trade-offs of taking away some 
of the other areas of inquiry.
    And, I think we have a huge game changing opportunity. I 
mentioned data analytics earlier as a game changer. Also, the 
strength of the audit, making sure that it is more risk-based 
and more targeted on what I believe to be a more bottom-line 
question from the taxpayer is another opportunity that we are 
going to see help in the battle against improper payments.
    Senator Carper. Let me just make this comment. I thought 
that was a great response to a rather obscure question and 
issue.
    The Olympics are underway in London. Not so much in the 
Summer Olympics but in the Winter Olympics they have judges and 
they raise up scorecards.
    I am just going to ask the other three judges here, we will 
just say this is the Olympics and Mr. Werfel, you have just 
been one of the athletes. And, if you were to take your name 
tags and turn them over and write a score between 1 and 10, 
what score, Ms. Harman, would you give Mr. Werfel for his 
response on that?
    Did he knock it out of the park? What do you think?
    Ms. Harman. Yes, I am fairly certain I would go with a 10. 
[Laughter.]
    Senator Carper. Ms. Gunderson, I know you are pretty tough 
grader but what do you think?
    Ms. Gunderson. I would go with 10 maybe, 9.9, yes.
    Senator Carper. Mr. Czerwinski, what do you think?
    Mr. Czerwinski. Well, he oversees their budgets. 
[Laughter.]
    Senator Carper. You can be the honest broker here.
    Mr. Czerwinski. But also remember I am from GAO so we 
always say more can be done.
    Senator Carper. OK. All right.
    Mr. Czerwinski. It was a really good answer and I was 
thinking it was a really good primer to hear. I do have two 
other points to add to it, though--
    Senator Carper. Go ahead.
    Mr. Czerwinski [continuing]. Coming out of the Recovery 
Act, because the Recovery Act stressed a lot of systems and it 
showed us there are two lessons that appeared to me had to do 
with single audit.
    One is timing. Timing of the audit is essential because if 
you get the audit out there too late, it does not do anybody 
any good. So, whatever we do, and I think Dan has got it 
exactly right, and the context too, it has to be with the 
concept of improving the timing in mind also.
    The second is, looking at the State and local fiscal 
condition, their resources have been stressed worse than ours 
at the Federal level. What we saw during the Recovery Act were 
when States that fiscal stress, they tended to make cuts to 
people like me.
    They cut the State and local audit functions, and so, what 
you are talking about is asking State and local auditors to 
look at more, do it more quickly, do it with less.
    Where Danny gets a really high mark, and I probably give 
him a 9.5, is that you do it by targeting better, by what you 
look at and how you go about it, and I thought his answer was 
fabulous.
    Senator Carper. OK. All right. Good work.
    I have a question. I want to return to an issue that has 
been raised already but I want to really pose this for the 
entire panel.
    When the issue of performance metrics comes up, I am often 
reminded of the saying by I think it was Vince Lombardi, who 
used to say, if you are not keeping score, you are just 
practicing.
    In 2010, Congress, with the help of this Subcommittee, 
passed a law requiring the use of measures that would help the 
Federal Emergency Management Agency keep better score of its 
grants and called on the National Association of Public 
Administration to assist the agency in studying and developing 
and implementing performance metrics to assess the 
effectiveness of the grants.
    It is my understanding that FEMA is already implementing 
several of these recommendations and is developing an 
implementation timeline for some of the remaining measures.
    And, I would just say to, Ms. Harman and Ms. Gunderson, 
could you just describe for us some of these specific ways that 
your agencies are implementing quantifiable performance metrics 
to measure the effectiveness of your grants?
    And, do you have any best practices that you would like to 
share with the rest of us, the other panelists, and with me?
    Ms. Harman. Sure. I can talk a little bit to that. That is 
a great question. We obviously hear that a lot, critically from 
FEMA. You have invested $35 billion over the last 10 years, 
what are we getting for it?
    We did work very closely with NAPA on that report. We 
partnered within FEMA, one of our partner Directorates is the 
National Preparedness Directorate where really smart people 
with really big brains analyze all of this data that we collect 
from our stakeholders.
    So, as we work with them, we have worked very closely, what 
information are we collecting, why are we collecting it, and 
what do we need.
    There are a lot of reporting requirements, everything from 
financial reporting requirements, tell us what you are doing 
with your money, tell us how you are progressing on your 
investment justification.
    It, at times, can be overly burdensome to a stakeholder to 
do that. So, we have had to really step back and think, with 
the help of NAPA, saying what should we be collecting and why. 
So, we are in the process of making some enhancements with 
that.
    We have also looked at individual grant programs such as 
the Emergency Management Performance Grant Program that is out 
there. That is roughly $350 million a year. You hear some folks 
who like that program, it is great, and others that do not like 
it say what are we doing with this, what are we getting for it.
    We instituted some very specific measures to show that this 
grant program is not just paying for people, for local 
emergency managers, they are paying for people that meet 
certain knowledge, skills, and abilities.
    So, we have performance metrics with regards to the types 
of training that is required for these emergency managers, the 
types of activities they should be performing each year with 
regards to participation and exercises. When they are writing 
plans, they should be writing their plans to a certain level.
    So, all of that has been incorporated, and this is just one 
program out of a multitude of programs that we have. So, we are 
making a lot of progress with that.
    But, with the intel and the data that we currently have we, 
as I mentioned earlier, we know exactly what was purchased and 
where we purchased it.
    But, I think the true metric of performance and the 
capabilities that we have built over time is nothing beats 
through performance. When you look at the performance of the 
events last year in Joplin and Tuscaloosa, those events were 
handled very swiftly, very quickly and efficiently at a local 
level.
    FEMA did not have to deploy one Federal urban search and 
rescue team down there because it was already handled at a 
local level. So, these dollars are making a difference.
    By 2010, 75 percent of States and urban areas had emergency 
operation plans that they were comfortable with to say we can 
deal with a catastrophic event here.
    We have more than 10 million stakeholders trained in the 
incident command system across the board. That was sort of 
unheard of. Incident command prior to 9/11 not a lot of folks 
really knew what that was.
    So, we have data that can show us what they are capable of, 
what they are comfortable of, what training they have taken, 
but nothing beats the true performance that we have seen in 
some of the recent disasters.
    Senator Carper. Ms. Gunderson.
    Ms. Gunderson. At the Department level, we do not have a 
singular set of performance metrics to apply to all of our 
programs. We manage over 300 programs across the Department.
    I do have some examples of what our agencies do at the 
program level. In our Health Resources Services Administration, 
for an example, under their HIV-AIDS Bureau, something that is 
near and dear to our heart given the conference that is 
occurring this week in Washington, they have created a set of 
performance measures which comprise indicators that the 
providers can use to monitor the quality of care that they are 
providing based on a core set of data and reporting metrics.
    So, we are able to capture that data and understand it. 
They have also recently begun to introduce language into their 
funding opportunities announcements that have let them open the 
door to consider that performance information in making future 
funding decisions.
    Senator Carper. Mr. Czerwinski, do you want to add anything 
or, Mr. Werfel, anything on this point?
    Mr. Czerwinski. One thing I was thinking about is that you 
have a great staff.
    Senator Carper. Me?
    Mr. Czerwinski. Yes. You have a great staff.
    Senator Carper. You are right. I know.
    Mr. Czerwinski. The kind of questions that they are asking 
are really helpful to us as we do our work. Our Assistant 
Director who is going to be doing the performance report that 
we talked about in my statement, I am sure he is taking a lot 
of notes based on what you are asking. So, thanks for helping 
us.
    Senator Carper. I saw somebody back there writing a lot. 
[Laughter.]
    OK. Thank you. Mr. Werfel, anything on this particular 
point?
    Mr. Werfel. I think it is a really good question and it 
goes to, I think, the appropriate evolution of grants. And, 
right now if you look where our metrics are, they are in the 
nuts and bolts issues. We have lots of metrics on improper 
payments and outstanding debts as an example.
    We have audit on the findings, whether in the single audit 
or the financial statement audit. We have a bunch of metrics 
that go at the heart of these financial management issues, and 
those are all important.
    Where we do not have a global framework is on performance 
metrics across the government, and I think that with the 
enactment of the GPRA Modernization Act and other efforts, it 
seems to me that this is where we are evolving to, to grow from 
nuts and bolts metrics on the money and the timing of the 
money. These are all really important questions, but what we 
are getting for the money I think is the next evolution of 
metrics and definitely in grants there is a huge opportunity 
there.
    Senator Carper. Anything? Anybody else? Ms. Harman.
    Ms. Harman. Well, I will just add. The other important 
thing for us at DHS, and I know we have partnered with HHS in 
aligning some of our grant programs, is the overall what we are 
trying to accomplish with performance metrics and where are we 
going as a Nation with regard to capabilities.
    So, the other thing that has helped guiding us, of course, 
is Presidential Policy Directive Number 8, and the national 
preparedness goal and everything else that fits within that 
with the strategy and the framework and the core capabilities 
that now all of our grant programs are aligning to, to help us 
get to sort of a single fashion and a goal in mind.
    So, that is an overarching strategy for us.
    Senator Carper. OK. Good. Thank you.
    Maybe one more question for you, Mr. Werfel.
    As some of you know, I often like when I get to the end of 
hearing, sometimes I will ask the panelists to kind of reflect 
back on what has been said, what you have said, what others 
have said, questions that have been asked. Just maybe make a 
closing statement. You always get to give an opening statement 
but I am going to give you an opportunity to make a closing 
statement if you like.
    Before we do that, though, I want to ask one more question, 
if I could, of Mr. Werfel, and this deals with the new Federal 
Grant Management Council.
    I understand that the Administration has established a new 
council--I am sure there is an acronym for it--for the 
oversight of grants--and, yes there is, we talked about it 
earlier--grants across the Federal Government.
    And, there are a lot of issues, questions, and concerns 
that need to be addressed by the Council on Financial 
Assistance Reform. Please do not call it COFAR but I know that 
is what it is. You may just call it the Council.
    But, Mr. Werfel, what are the top priorities for the new 
oversight body--you talked a little bit about this earlier--for 
the Council on Financial Assistance for the next, we will say, 
calendar year?
    Mr. Werfel. Well, at the Council we focused on three main 
areas and then a high-level burden reduction, error reduction, 
and transparency. That is where we have started.
    And, part of that comes from making sure we know and are in 
touch with our stakeholders, and we have a couple of big ones. 
The grantee community, I will put them in blocks of State and 
local governments, colleges and universities, and nonprofits; 
and they certainly are extraordinarily vocal, and as they 
should be, on places where they see a lot of unnecessary 
administrative activity.
    It is that type of feedback that led the President to issue 
a directive in, I believe it was, February 2011 for the Federal 
Government with emphasis on OMB on looking at the burdens we 
impose on our recipients and looking for strategies to reduce 
that burden; and that is part of the effort that I described 
when I was talking about the single audit.
    There are other components of that and burden reduction is 
one. And so, before I leave burden reduction, I will just say 
the major tension there is that on all the paperwork we are 
trying to pull back and say, is it really worth it, are we 
getting the bang for the buck in terms of requiring all these 
check the boxes.
    On the other side of that is the auditor and the Inspector 
General community saying, in some cases and in many cases that 
paperwork is critical to our investigations.
    So, we cannot just, unfortunately there is no easy pull 
back on the paperwork and everyone is happy. It has got to be 
done very strategically and in concert with the auditor.
    And, this Council is having meetings and I have sat in a 
few of them that are fascinating where you have the 
universities in one chair and the Inspector General community 
in the other and they are talking about this paperwork burden 
and we are trying to figure out is there a solution set their.
    On error reduction, we have been talking about that. It is 
do not pay. It is improper payments. It is all the various work 
we are doing; and in many cases, it is trying to empower the 
State and local governments to be a part of the solution.
    So, we have programs like Medicaid and unemployment 
insurance where there is 50 different State administrative 
solutions. So, it is not like at HHS or at Labor. They can 
fashion the solution that is going to solve the problem.
    It involves outreach and partnership and best practice 
sharing and working amongst the State and local governments in 
a way to cultivate solutions and having good things go viral in 
terms of what we can do, in terms of error reduction. That is a 
clear priority.
    And then finally, last week I was here and talking about 
transparency; and the big stakeholder there is the public. It 
is the sunlight groups. It is this Committee. It is the House 
of Representatives as well and it is the President's commitment 
that he has had in transparency since he cosigned and 
coauthored the Transparency Act in 2006.
    And, as we discussed last week, there are important steps 
that the grants community needs to take to position our 
information, not only to get public more quickly but more 
reliably.
    And so, the Council is focused on those areas as well.
    Senator Carper. Thank you. Just a follow-up for you and 
then I just have one related question for Mr. Czerwinski.
    I understand that there are no stakeholders, no 
stakeholders such as grant recipients, on the Council. Is that 
true? And, if that is true, is the lack of stakeholder 
involvement a potential problem? And, if it is, how would you 
engage grant recipients?
    Mr. Werfel. It is a very tough question that I have 
wrestled with and lost some sleep over. The answer is there are 
no official non-government entities on our Council.
    The reason, there are probably two primary reasons for 
that. The first is that we feel that there is an appropriate 
time and place to have external outreach, an appropriate time 
and place to have an internal free exchange of ideas, 
collaborative spirit without knowing that everything we say is 
public, could end up on the front cover of the New York Times, 
that type of thing. And so, we are trying to balance that.
    And so, our answer to balance that was to essentially have 
a government-only Council by judge us not based on the 
structure of that Council. Judge us on whether we are both 
actively engaging stakeholders and that active engagement is 
resulting in improvements and changes to the manner in which we 
are carrying out government programs, because it does not 
really matter--I am sure, I am going to make an assumption 
here, that if you had the recipient stakeholders community in 
here and they were testifying and asked them, what would be 
more important, a name and a seat at the table at the Council 
with no real change in the direction of Federal policy that is 
to your benefit or no seat on the Council but active engagement 
in a real dynamic set of changes coming from the Federal 
Government in response to your concerns.
    I think they would take the latter every time. When I have 
talked to them, I have asked them to judge us and judge me on 
that frame.
    And, I think this first project that the Council has 
undertaken, this very transformative change, the Single Audit 
Act to administrative requirements, this is a major first test 
because the comments that we got back from the community were 
filled with passion and concern and energy; and to the extent 
we can make sure that we are navigating all of them, I think we 
will demonstrate to them that they really do have a voice.
    Senator Carper. OK. Mr. Czerwinski, based on the work that 
you all are doing at GAO, what would you consider to be some of 
the important questions or issues that this new oversight 
Council should take up?
    Mr. Czerwinski. Well, you started with one and that is the 
input from the stakeholders. A second is to take a look at both 
the financial and programmatic management of what you want to 
achieve with grants.
    A third, and this is something that we looked at back when 
we were falling on PL 106-107, is setting clear objectives and 
clear time frames, and then holding yourselves accountable to 
that, that is one issue that we found looking back to the Grant 
Executive Board, the Grand Policy Committee, that this was not 
quite as clear as what they wanted to achieve and when they 
were going to achieve it by. Hence, things have stretched out.
    So, I would say that would probably be the other piece is 
to really have a very clear objective, a clear plan, clear time 
frames.
    Senator Carper. OK. Good. Thanks.
    OK. What I would like to do now is just ask each of you 
help me give the benediction, and just a short statement. Your 
opening statements were about 5 minutes. This one should not be 
that long.
    But, just a point or two that you would like to reiterate. 
I think we ought to underline some points before we wrap this 
up and I go start voting.
    Do you want to go first, Mr. Czerwinski?
    Mr. Czerwinski. Yes. I went last the last time so I will go 
first this time if that is ok.
    Senator Carper. Go right ahead.
    Mr. Czerwinski. To me this hearing goes back to the point 
that we were talking about congressional oversight and also we 
talked about a plan for OMB with its Council. I think there is 
a plan for the accountability community and for the oversight 
community as to what we want to achieve in the next session of 
Congress.
    So, I personally was very gratified to hear the line of 
questioning that went along the lines of internal controls, 
went along the lines of streamlining in performance measurement 
because those, I believe, are three central pieces if we are 
going to make grant management work better.
    And of course, when we talk about grant management, we have 
to think about the impact it has not just on the recipient 
community but also on the Federal budget, and this is a huge 
piece of the budget. It is a very complicated piece, and we 
need to get some handle on making it more straightforward and 
to work better.
    The issue of closeouts is a very specific issue. It is a 
small one; but it is also an example of where, when we start to 
pay attention and we start to focus efforts, they can get 
better.
    We talked about reporting in 2008 that we roughly found 
about $1 billion. We saw improvement when we came back in 2012. 
Assuming that we come back again at another time, we would 
expect to see similar or greater improvement.
    Senator Carper. OK. Thanks.
    Ms. Gunderson, you can repeat, do not hesitate to repeat 
some of the same points that Mr. Czerwinski made. If you have 
others, that will be fine as well.
    Ms. Gunderson. I do want to emphasize the Department is 
committed to protecting the taxpayer dollars and serving as a 
steward of the public's trust.
    We do take grants management very seriously and we really 
appreciate the work of the Subcommittee, the Government 
Accountability Office and our own Inspector General in 
continuing to bring grants management to the forefront because 
it is an important part of the way we execute our mission at 
the Department.
    We did make great success last year in terms of our grant 
close out and we did get noticed for that both by the GAO, 
which we appreciate, and our own internal auditors.
    We have come off the risk list internally in terms of our 
audit, and the fear for that is that means we have declared 
success and we will move on and will not pay attention.
    This work of the Subcommittee and the GAO continues to 
emphasize that this is important work to do in terms of closing 
out our accounts, managing our ongoing projects.
    We appreciate that and the attention that your Subcommittee 
gives to these types of initiatives and the resources we need 
and systems we need to make these things happen is appreciated.
    Senator Carper. Thank you. Ms. Harman, a closing thought.
    Ms. Harman. Sure. I would just like to say thank you for 
the opportunity to be here. It is not often we get to talk 
about grant management with regards to FEMA.
    We have talked a lot about our different programs and what 
is good, what is bad, which ones are working, what are we 
getting for our dollars.
    It is exciting for me to be able to share with you what a 
lot of our staff are working on. We have a very dedicated staff 
at FEMA. They are in the grants world and sometimes they get a 
little bit left out of the excitement when it comes to the 
response and recovery phases and working directly with victims 
of incidents.
    I just wanted to throw kudos to them because there are many 
times under some of the statutory deadlines that we have to get 
the grants out the door that many of them have given up there 
summers and there vacations to obligate all of those fun in a 
timely manner. So, I want to throw kudos to there.
    With regards to things that we need, you are most likely 
aware of the President's budget, the request for the 
consolidation of 16 different preparedness grant programs into 
the National Preparedness Grant Program, one single program.
    That most certainly would ease a lot of the things we have 
to do. It is difficult enough as a stakeholder, a former 
stakeholder myself, but at the State level to manage not only 
the funds that we appropriate and allocate to the States but 
funds that are coming in from other Federal agencies.
    It is a big and heavy workload, and what we have proposed 
is a consolidation of 16 programs to achieve the national 
preparedness goals. When Ranking Member Brown asked earlier 
what do you need, I was a little selfish in the point where I 
focused on IT systems and really what our Directorate needs.
    But, in the larger scope of things, the streamlining of 
these programs and achieving the same goal will also not only 
build capability and preparedness but it will also streamline a 
lot of the administrative functions behind managing these 
grants.
    Thank you for the time.
    Senator Carper. You bet and thanks for yours.
    Mr. Werfel, last statement.
    Mr. Werfel. Two quick points. First of all, I want to echo 
something that Mr. Czerwinski said earlier about the talent and 
dedication of the people sitting behind you.
    Senator Carper. On both sides?
    Mr. Werfel. On both sides for sure.
    Senator Carper. I know.
    Mr. Werfel. And I have been working with this Committee and 
the Subcommittee coming up on 9 years since I transitioned into 
the financial management sphere and this group is especially 
collaborative and smart and thoughtful and challenging, 
challenging us in the right ways. And so, I just wanted to give 
that feedback to the group and to you.
    Senator Carper. Thank you.
    Mr. Werfel. And, one of the particular areas which is most 
encouraging and I am hearing more and more of is outreach and 
connectivity that the folks sitting behind you have with the 
stakeholders, State and local governments, and particularly 
those that are impacted by grants policy, and I encourage that 
type of ongoing discussion.
    I mean a lot of things get lost in translation. I do not 
want to be the voice of the State and local governments or the 
universities on these issues. I want to make sure that you are 
hearing it directly from them so you can make the best informed 
judgment.
    I am hearing more and more just in the chatter of this 
entity or that entity going up and meeting with the Homeland 
Security and Governmental Affairs Committee (HSGAC) staff and I 
think that is an enormously positive development and we are 
hoping that it continues.
    Senator Carper. Well, good. I just want to make one 
observation. This, I think, has been a very helpful hearing, 
and we appreciate the work that has gone into not just 
preparing for what you said here today but literally the work 
that has gone on for months, in some cases years, to enable us 
to report the sort of progress that is being realized 
especially by these two agencies.
    This is not a hearing that is maybe as attention-gathering 
as Fast and Furious. It is not as riveting as the fiscal cliff 
or something along those lines or cybersecurity.
    Having said that, Federal grants is important stuff and we 
realized that and obviously you know that, and in the end, it 
will help us save some money and we need to save a lot of 
money. This is not the whole fiscal package but this adds up.
    And, I always like to see progress being made. We are 
seeing progress being made. I want to congratulate you for that 
because we all know everything we do we can do better. We need 
to improve more but I am pleased with the progress that we 
heard about today. Let us keep it coming.
    Thanks so much.
    We are adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
